HHS/OIG-Audit--"Review of Home Office General and Administrative Costs Claimed by ABC Home Health Services, Inc., (A-04-93-02067)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Home Office General and Administrative Costs Claimed by ABC Home Health Services, Inc.," (A-04-93-02067)
March 21, 1995
Complete
Text of Report is available in PDF format (2.67 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that ABC claimed unallowable general and administrative (G&A) costs of $14.3 million
out of $52.3 million reported in calendar year 1992. The costs were generally unallowable because they were not reasonable,
were not necessary for the maintenance of the health care entity, or did not relate to patient care. We recommended that
the fiscal intermediary for ABC remove $14.3 million from ABC's 1992 cost reports. The Health Care Financing Administration
generally agreed with our findings and conclusions.